2311 Douglas Street
Omaha, Nebraska 68102-1214

C@OCKLE

1-800-225-6964
(402) 342-2831

Fax: (402) 342-4850 No. 19-730

DeRay Mckesson, Petitioner
v.
John Doe, Respondent

AFFIDAVIT OF SERVICE

Legal Briefs

Est. 1923

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 8th day of January, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the Brief of Amicus Curiae National Police Association Supporting
Respondent in the above entitled case. All parties required to be served have been served by third-party commercial carrier
for delivery within 3 calendar days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
James Bopp, Jr.
Counsel of Record
Richard E. Coleson
Corrine L. Youngs
Amanda L. Narog
THE BOPP LAW FIRM, PC
The National Building
1 South Sixth Street
Terre Haute, IN 47807
812/232-2434 (telephone)
812/235-3685 (facsimile)
jboppjr@aol.com
Counsel for Amicus Curiae

Subscribed and sworn to before me this 8th day of January, 2020.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary

State of Nebraska
My Commission Expires Nov 24, 2020

de, 0 blit» Qudrah, le

 

 

Notary Public

Affiant

39267
David Goldberg Donna Grodner

Donahue, Goldberg, Weaver & Grodner Law Firm
Littleton, LLP 2223 Quail Run Drive

109 South Fifth Street, Suite 4201 Baton Rouge, LA 70808
Brooklyn, NY 11249 Telephone: 225-769-1919
Telephone: 212-334-8813 dgrodner@grodnerlaw.com

david@donahuegoldberg.com
